No. _____
IN THE
Supreme Court of the United States
RENOVO SERVICES, LLC, REMARKETING SOLUTIONS,
LLC, PAR, INC.,
Petitioners,
v.
GEORGE BADEEN, MIDWEST RECOVERY
AND ADJUSTMENT, INC.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit
PETITION FOR A WRIT OF CERTIORARI
Blaine C. Kimrey
Counsel of Record
Vedder Price P.C.
222 North LaSalle Street
Chicago, Illinois 60601
(312) 609-7865
bkimrey@vedderprice.com

Leslie C. Morant
Morant Law PLLC
146 Monroe Center, NW,
Ste. 418
Grand Rapids, MI 49503
(616) 647-5426
les@morantlawpllc.com

Counsel for PAR, Inc.

Counsel for Remarketing
Solutions, LLC, and
Renovo Services, LLC

QUESTIONS PRESENTED
This appeal presents important questions not yet
settled by this Court related to federalism and the separation of powers. Specifically, the case presents the
Court with the opportunity to clarify the impact and
importance of deadlines set by Congress in federal
statutes and distinguish them from court-set deadlines. The Rules Enabling Act, 28 U.S.C. § 2072, delegates to the courts only the “general rules of practice
and procedure,” thereby reserving exclusively to Congress all other rules governing the federal courts. At
issue here is the federal removal statute, which calls
for motions to remand to be filed within 30 days of removal. 28 U.S.C. § 1447(c). But the District Court in
this case sua sponte extended that deadline by more
than seven months, exceeding its constitutional authority by disregarding a mandatory statutory deadline set by Congress. And although the clock for removal under the Class Action Fairness Act, 28 U.S.C.
§§ 1332(d), 1453, and 1711-1715 (“CAFA”), does not
begin to run until a defendant receives from a plaintiff
a document demonstrating the amount in controversy,
the District Court in this case held that a vague and
subsequently retracted “open letter” posted online and
never delivered by Plaintiffs to Defendants was
enough for Defendants to “unambiguously ascertain”
the amount in controversy. This Court has not addressed these specific issues, and this appeal gives the
Court the opportunity to resolve ambiguities in CAFA
jurisprudence.
The questions presented are:
1. Can a District Court extend the mandatory statutory deadline set by Congress to file a motion for
i

remand under 28 U.S.C. § 1447(c) without violating
the constitutional separation of powers?
2. Does a letter posted online but not sent by any
plaintiff to any defendant constitute “other paper” sufficient to start the removal clock under 28 U.S.C.
§ 1446(b)(3)?
3. In assessing whether a defendant has sufficient
information to determine that the CAFA amount in
controversy exceeds $5 million, is it appropriate for the
District Court to require the defendant to engage in
extrapolation and speculation?

ii

PARTIES TO THE PROCEEDING
Petitioners PAR, Inc. (“PAR”), Renovo Services,
LLC (“Renovo”), and Remarketing Solutions, LLC
(“Remarketing”) (collectively, “Defendants”), are the
defendants in the District Court and appellants in the
Court of Appeals. Respondents George Badeen and
Midwest Recovery and Adjustment, Inc. (“Midwest Recovery”) (collectively, “Plaintiffs”), are the plaintiffs in
the District Court and appellees in the Court of Appeals.

iii

CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, PAR states
that it is a wholly owned subsidiary of ADESA, Inc.,
which itself is a wholly owned subsidiary of KAR Auction Services, Inc., which is a publicly held corporation.
Renovo and Remarketing state that they are privately
held limited liability companies, and no publicly held
corporations own 10% or more of their stock.

iv

RELATED CASES STATEMENT
•

Badeen, et al. v. PAR, Inc. d/b/a PAR North
America, et al., No. 19-cv-10532, U.S. District
Court for the Eastern District of Michigan. Remand order entered March 31, 2020.

•

In re PAR, Inc., et al., No. 20-103, U.S. Court of
Appeals for the Sixth Circuit. Order granting
permission to appeal entered October 15, 2020

•

Badeen, et al. v. Renovo Services, LLC, et al., No.
20-2008, U.S. Court of Appeals for the Sixth Circuit. Order denying permission to appeal entered December 2, 2020.

v

TABLE OF CONTENTS
PAGE

QUESTIONS PRESENTED .......................................i
PARTIES TO THE PROCEEDING ......................... iii
CORPORATE DISCLOSURE STATEMENT ..........iv
RELATED CASES STATEMENT ............................. v
TABLE OF APPENDICES .................................... viii
TABLE OF AUTHORITIES ......................................ix
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ................................................... 2
JURISDICTION ......................................................... 2
RELEVANT PROVISIONS OF LAW ........................ 3
STATEMENT OF THE CASE ................................... 3
A. Factual and Procedural Background ........ 3
B. Legal Framework ....................................... 7
REASONS FOR GRANTING THE WRIT ............... 10
A. This case involves important issues
of federal law that remain unresolved by this Court ................................. 11
B. The Sixth Circuit’s decision conflicts
with decisions holding that mandatory statutory deadlines cannot be
extended by courts or litigants ................ 13

vi

TABLE OF CONTENTS
PAGE

C. The Sixth Circuit’s decision conflicts
with decisions holding that the
“other paper” from which a defendant can ascertain removability under
CAFA must be provided by the
plaintiff to the defendant ......................... 18
D. The Sixth Circuit’s decision conflicts
with decisions regarding what constitutes sufficient evidence to allow a
litigant to “unambiguously ascertain” removability under CAFA ............... 21
CONCLUSION ......................................................... 25

vii

TABLE OF APPENDICES
Page
APPENDIX A — ORDER OF THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT, FILED
DECEMBER 2, 2020 ............................................ 1a
APPENDIX B — ORDER OF THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT, FILED
OCTOBER 15, 2020.............................................. 3a
APPENDIX C — ORDER OF THE UNITED
STATES
DISTRICT
COURT
FOR THE EASTERN DISTRICT OF
MICHIGAN,
SOUTHERN
DIVISION,
FILED MAY 21, 2020 ........................................... 7a
APPENDIX D — ORDER OF THE
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
MICHIGAN,
SOUTHERN
DIVISION,
FILED MARCH 31, 2020 ................................... 14a
APPENDIX E — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT,
FILED JANUARY 5, 2021 ................................. 26a
APPENDIX F — RELEVANT STATUTORY
PROVISIONS ..................................................... 28a

viii

TABLE OF AUTHORITIES
Page(s)
Cases
Argentine Republic v. Nat’l Grid PLC,
637 F.3d 365 (D.C. Cir. 2011) .............................. 17
Ariel Land Owners, Inc. v. Dring,
351 F.3d 611 (3d Cir. 2003) ................................. 15
In re Bethesda Mem. Hosp., Inc.,
123 F.3d 1407 (11th Cir. 1997) ........................ 7, 16
Bowles v. Russell,
551 U.S. 205 (2007) .............................................. 16
Castillo v. Hongjin Crown Corp.,
No. DR-08-CV-00031-AML-VRG, 2009
WL 10669499 (W.D. Tex. July 14, 2009) ............... 8
Caterpillar Inc. v. Lewis,
519 U.S. 61 (1996) ................................................ 16
Coll. of Dental Surgeons of P.R. v. Conn.
Gen. Life Ins. Co.,
585 F.3d 33 (1st Cir. 2009) .................................. 13
Cutrone v. Mortg. Elec. Registration Sys.,
749 F.3d 137 (2d Cir. 2014) ........................... 20, 22
Dart Cherokee Basin Operating Co. v.
Owens, 574 U.S. 81 (2014) ................... 9, 11, 12, 21

ix

Dart Cherokee Basin Operating Co. v.
Owens, 730 F.3d 1234 (10th Cir. 2013) ................. 9
Dart Cherokee Basin Operating, Co. v.
Owens, No. 13-603, 2013 U.S. App.
LEXIS 26133 (10th Cir. June 20, 2013) ................ 9
FDIC v. Loyd,
955 F.2d 316 (5th Cir. 1992) ................................ 16
Gibson v. Clean Harbors Envtl. Servs., Inc.,
840 F.3d 515 (8th Cir. 2016) .......................... 20, 22
Graiser v. Visionworks of Am., Inc.,
819 F.3d 277 (6th Cir. 2016) ........................ passim
Holbein v. TAW Enters.,
983 F.3d 1049 (8th Cir. 2020) .............................. 15
Johnson v. USAA Cas. Ins. Co.,
900 F. Supp. 2d 1310 (M.D. Fla. Oct. 23,
2012) ....................................................................... 8
Kuxhausen v. BMW Fin. Servs. NA LLC,
707 F.3d 1136 (9th Cir. 2013) ........................ 22, 23
Naji v. Lincoln,
665 Fed. App’x 397 (6th Cir. 2016) .................. 7, 15
Page v. City of Southfield,
45 F.3d 128 (6th Cir. 1995) .............................. 7, 15
Pavone v. Miss. Riverboat Amusement
Corp.,
52 F.3d 560 (5th Cir. 1995) .............................. 7, 16
x

Pettitt v. Boeing Co.,
606 F.3d 340 (7th Cir. 2010) ............................ 7, 15
Powerex Corp. v. Reliant Energy Services,
Inc.,
551 U.S. 224 (2007) .............................................. 16
Romulus v. CVS Pharmacy, Inc.,
770 F.3d 67 (1st Cir. 2014) ............................ 20, 22
In re Shell Oil Co.,
932 F.2d 1523 (5th Cir. 1991) ................................ 8
Sherrod v. Breitbart,
720 F.3d 932 (D.C. Cir. 2013) .......................... 8, 17
Standard Fire Ins. Co. v. Knowles,
568 U.S. 588 (2013) ............................................ 2, 9
Tennial v. REI Nation, LLC (In re Tennial),
978 F.3d 1022 (6th Cir. 2020) .............. 7, 13, 14, 15
Things Remembered, Inc. v. Petrarca,
516 U.S. 124 (1995) .............................................. 16
United States v. Easement & Right-of-Way
100 Feet Wide and 747 Feet Long Over
Certain Land in Cumberland Cnty.,
Tenn.,
386 F.2d 769 (6th Cir. 1967) ................................ 17
Walker v. Trailer Transit, Inc.,
727 F.3d 819 (7th Cir. 2013) ................................ 20
Wis. Dep’t. of Corr. v. Schacht,
524 U.S. 381 (1998) .............................................. 16
xi

Statutes
28 U.S.C. § 158(c)(2) .................................................. 14
28 U.S.C. § 1254(1) ...................................................... 2
28 U.S.C. § 1446 ................................................ passim
28 U.S.C. § 1447 ................................................ passim
Class Action Fairness Act, 28 U.S.C. §§
1332(d), 1453, 1711-1715 ............................. passim
Rules Enabling Act of 1934, 28 U.S.C. §§
2017-2077 ..................................................... passim
Rules
Federal Rule of Civil Procedure 6(b) .............. 8, 17, 18
Supreme Court Rule 10 ............................................. 10
Other Authority
S. REP. NO. 109-14 (2005) .......................................... 21

xii

1
PETITION FOR WRIT OF CERTIORARI
This case concerns three critical issues related to
removal and federal court jurisdiction. These issues
are appropriate for review by this Court because they
present important errors that are likely to be repeated
on a regular basis by lower courts evaluating removal
and remand issues and because the District Court’s
and Sixth Circuit’s approach to these issues in this
case is such a significant departure from the accepted
and usual course of judicial proceedings. Indeed, in
allowing the District Court decision to stand, the
Sixth Circuit has split not only with its sister circuits
but also with precedent within the Sixth Circuit.
First, the Court has the opportunity here to determine whether district courts have the constitutional
authority to extend or stay the statutory deadline to
seek remand under Section 1447(c). Second, this case
will allow the Court to determine, as a matter of first
impression, whether the clock for removal under
CAFA begins to run when the “other paper” described
in Section 1446(b)(3) that could potentially be used to
determine the amount in controversy is not provided
by the plaintiff directly to the defendant but rather
posted on a Web site. Finally, this case will allow the
Court to clarify what is necessary for a defendant to
ascertain the value of a putative class action lawsuit
under CAFA.
By declining to review the District Court’s remand
decision in this case, the Sixth Circuit tacitly approved the District Court’s extension of the remand
deadline and its remand based on Defendants’ alleged
failure to seek removal within 30 days after Plaintiffs
posted an “open letter” on the Internet that was later

2
retracted and regardless did not clearly and definitely
establish an amount in controversy greater than
$5 million. The Court should grant this petition so
that these errors can be corrected and the Court can
provide guidance to courts and litigants in the future
about mandatory statutory deadlines and CAFA removal and remand.
OPINIONS BELOW
The Sixth Circuit’s order denying rehearing en
banc is available in the attached Appendix. App. 26a27a. The Sixth Circuit’s order dismissing the appeal
as improvidently granted (App. 1a-2a) is reported at
2020 WL 9218084. The District Court’s opinion granting remand (App. 14a-25a) is reported at 2020 WL
6135656.
JURISDICTION
The Sixth Circuit, after initially granting permission to appeal, dismissed the appeal after finding that
leave to appeal was improvidently granted and denied
rehearing en banc on January 5, 2021. Thus this
Court has jurisdiction under 28 U.S.C. § 1254(1). See
Standard Fire Ins. Co. v. Knowles, 568 U.S. 588, 591
(2013) (granting writ of certiorari after lower court denial of leave to appeal and denial of en banc review).
This petition is timely pursuant to the Court’s March
19, 2020 Order extending the deadlines for any petition for a writ of certiorari to 150 days based on the
ongoing public health concerns related to COVID-19.

3
RELEVANT PROVISIONS OF LAW
The relevant provisions of law for this appeal are
the federal procedural statutes relating to removal
and remand under CAFA. The language of 28 U.S.C.
§ 1332 is reproduced at App. 28a-37a. The language
of 28 U.S.C. § 1446 is reproduced at App. 38a-41a.
The language of 28 U.S.C. § 1447 is reproduced at
App. 42a-43a. The language of 28 U.S.C. § 1453 is reproduced at App. 44a-46a.
STATEMENT OF THE CASE
A.

Factual and Procedural Background

Plaintiffs commenced this putative class action in
the Circuit Court of Wayne County, Michigan on April
5, 2010, naming as defendants only a handful of many
forwarders that were operating in Michigan. (Compl.,
D. Ct. ECF 1-2, PageID# 36-47). The operative second
amended complaint was filed on September 7, 2010,
alleging various causes of action related to the vehicle
repossession process in Michigan. (“SAC,” D. Ct. ECF
1-2, PageID# 76-93). The two groups of defendants
are the “Lender Defendants” and the “Forwarder Defendants.” (Remand Order, App. 15a). The Lender
Defendants are allegedly lending institutions that finance vehicles purchased by customers or purchase finance contracts from dealers. (SAC, D. Ct. ECF 1-2,
PageID# 83). The Forwarder Defendants are alleged
to forward repossessions on behalf of the Lender Defendants to Michigan debt collection agencies, such as
Plaintiffs. (Id.).
Plaintiffs allege that the Forwarder Defendants’
conduct in Michigan was improper because they did

4
not obtain licenses during the putative class period.
(Id.). Plaintiffs, a Michigan collection agency and its
owner, George Badeen, thus purport to represent a
putative class of “every automobile repossession
agency or owner who held a license as a debt collector
in the State of Michigan [from April 5, 2004 through
April 4, 2010].” (Id. at PageID# 79-80, 85).
A key dispute in this appeal concerns when Defendants were sufficiently on notice that the amount
in controversy exceeded CAFA’s $5 million jurisdictional threshold. 28 U.S.C. § 1332(d). It is undisputed
that the SAC, which prays for relief in each count of
“not less than $25,000.00, plus interest, costs, and attorney fees,” is by itself insufficient. (SAC, D. Ct. ECF
1-2, PageID# 88-93). It was not until Plaintiffs responded to Defendants’ initial written discovery requests on January 24, 2019, and disclosed their theory
of damages that Defendants had sufficient notice of
CAFA removal jurisdiction. Plaintiffs’ relevant interrogatory response states:
Discovery as to total repossessions done by Forwarders is still ongoing. As an individual,
George Badeen would be entitled to $175 per
motor vehicle, or $50.00 per motor vehicle tripled under the statute, MCL 339.916, plus attorney’s fees and costs. As to the unnamed
class members, damages would be the total
number of repossessions times $175 net proceeds per repossession.
(Plaintiffs’ Interrog. Resp., D. Ct. ECF 1-4, PageID#
256). With that new information, Defendants were for
the first time able to unambiguously ascertain that
the amount in controversy exceeded CAFA’s $5

5
million threshold. (Notice of Removal, D. Ct. ECF 1,
PageID# 7). Defendants then timely removed this
case on February 21, 2019. (Notice of Removal, D. Ct.
ECF 1, PageID# 1-14).
More than eight months later, on October 23, 2019,
Plaintiffs moved to remand on the basis that Defendants’ removal was purportedly untimely. (Mot. to Remand, D. Ct. ECF 45, PageID# 691-714). Plaintiffs
argued, and the District Court agreed, that an “open
letter” authored by Plaintiffs on July 25, 2014, which
alleged “1.8 million misdemeanor violations,” provided unambiguous notice to Defendants that the
amount in controversy exceeded $5 million. (D. Ct.
ECF 45-3, PageID# 745). The following facts related
to that open letter are undisputed:
•

Plaintiffs did not send the open letter directly
to any Defendant;

•

The open letter was posted online for public
consumption without notice of publication from
Plaintiffs to any Defendant, and the Forwarder
Defendants were not its expressly intended recipients;

•

The open letter was authored in 2014, four
years after the class period defined in the SAC
closed, and does not contain any information
about when the conduct alleged in the open letter occurred;

•

The open letter does not specifically identify
any Defendant, but instead broadly refers to
“any forwarders” that may include the Forwarder Defendants, or may not, and may

6
include other forwarding companies that are
not named as Defendants; and
•

After PAR demanded that Plaintiffs retract the
open letter because it contained false and defamatory information, Plaintiffs complied and
issued an email with the subject line “Retraction” to the letter’s audience. (Retraction, D.
Ct. ECF 52-2, PageID# 880-81).

Nevertheless, the District Court held that the open
letter in combination with the operative complaint allowed Defendants to unambiguously ascertain the
amount in controversy in 2014. (Remand Order, App.
20a-23a). The District Court further held that the
more than eight-month delay between removal and
Plaintiffs’ Motion to Remand did not constitute a
waiver of Plaintiffs’ objections because the District
Court had stayed the case while the parties conducted
a settlement conference. (Reconsideration Order,
App. 11a).
The Sixth Circuit originally granted Defendants’
28 U.S.C. § 1453(c) Petition because, in part:
We have never considered . . . in a published
decision, whether the thirty-day period in 28
U.S.C. § 1447(c) is a procedural or jurisdictional
requirement or, if the former, whether equitable exceptions apply to that rule.
(Permission to Appeal Order, App. 5a). The Sixth
Circuit panel also observed that this appeal involved
a CAFA-related legal issue of statutory interpretation that could be decided on the record and allowed
the Court to further define what information is

7
needed to “permit a defendant to unambiguously ascertain CAFA jurisdiction.” (Id.).
After the parties briefed the appeal on an expedited basis, the panel dismissed the appeal as “improvidently granted.” (Order Dismissing Appeal, App.
2a). Plaintiffs then sought en banc review, but the
Sixth Circuit denied such review. (Order Denying En
Banc Review, App. 27a).
B.

Legal Framework

The District Court exceeded its constitutional authority in staying, then extending, the congressionally
mandated remand deadline at 28 U.S.C. § 1447(c).
See Tennial v. REI Nation, LLC (In re Tennial), 978
F.3d 1022, 1028 (6th Cir. 2020) (finding statutorybased deadline mandatory); Naji v. Lincoln, 665 Fed.
App’x 397, 402 (6th Cir. 2016) (finding district court
lacked power to sua sponte extend remand deadline);
Page v. City of Southfield, 45 F.3d 128, 133 (6th Cir.
1995) (same); Pettitt v. Boeing Co., 606 F.3d 340, 343
(7th Cir. 2010) (“[E]ven if the ‘defect in the removal
process could have justified a remand . . . because 30
days passed without protest — and the problem does
not imperil subject-matter jurisdiction — the case is
in federal court to stay.’”); In re Bethesda Mem. Hosp.,
Inc., 123 F.3d 1407, 1411 (11th Cir. 1997) (“The court
acted outside of its statutory authority by remanding
for a procedural defect after thirty days of the notice
of removal.”); Pavone v. Miss. Riverboat Amusement
Corp., 52 F.3d 560, 566 (5th Cir. 1995) (“[A] district
court has no discretion to remand to state court when
a motion to do so is grounded on improper removal
procedures and that motion is not made within thirty
days following filing.”); see also Rules Enabling Act, 28

8
U.S.C. § 2072 (delegating only “general rules of practice and procedure” to the courts); In re Shell Oil Co.,
932 F.2d 1523, 1529 n.9 (5th Cir. 1991) (“Congress’ desire that remand be handled expeditiously is reflected
in the plain language of § 1447(c): the motion to remand ‘must be made within thirty days after [removal].’”).
The District Court’s improper extension cannot be
excused by Federal Rule of Civil Procedure 6(b), which
allows district courts to extend certain deadlines for
“good cause,” because that rule applies only to time
periods set forth in the federal rules or by court order
and cannot be used to extend the statutory deadlines
related to removal and remand. See, e.g., Castillo v.
Hongjin Crown Corp., No. DR-08-CV-00031-AMLVRG, 2009 WL 10669499, at *16 (W.D. Tex. July 14,
2009) (holding that “Rule 6(b) does not apply to the
time period set forth in 28 U.S.C. § 1447(c)”); Johnson
v. USAA Cas. Ins. Co., 900 F. Supp. 2d 1310, 1312
(M.D. Fla. Oct. 23, 2012) (holding that federal courts
may not “enlarge statutory periods based on ‘good
cause’ under [Rule 6(b)]” and “Section 1446(b)’s mandatory removal period cannot be enlarged by court order, stipulation of the parties, or otherwise”); see also
Sherrod v. Breitbart, 720 F.3d 932, 938 (D.C. Cir.
2013) (“Motions under Federal Rule of Civil Procedure
6(b) cannot extend statutory time limits.”).
In remanding, the District Court also disregarded
precedent holding that the “other paper” giving rise to
removability must be provided by the plaintiff to the
defendant and must be sufficiently clear to allow the
parties and the courts to unambiguously ascertain
CAFA jurisdiction. Graiser v. Visionworks of Am.,
Inc., 819 F.3d 277, 285 (6th Cir. 2016).

9
Acknowledging that this case implicates exceptionally important questions of federal jurisdiction,
the Sixth Circuit initially granted review of Appellants’ 28 U.S.C. § 1453(c) Petition for Permission to
Appeal. But then the Sixth Circuit — after full briefing — dismissed the appeal as “improvidently
granted.” Although the panel’s decision didn’t elaborate, the decision blessed the District Court’s erroneous rulings and sends a message to all courts and litigants in the Sixth Circuit that the District Court’s
conduct was appropriate. Instructive on this point is
this Court’s decision in Dart Cherokee Basin Operating Co. v. Owens, 574 U.S. 81 (2014). In that case, the
Tenth Circuit rejected discretionary appeal under
CAFA and then rejected en banc review. Dart Cherokee Basin Operating, Co. v. Owens, No. 13-603, 2013
U.S. App. LEXIS 26133, *1 (10th Cir. June 20, 2013);
Dart Cherokee Basin Operating Co. v. Owens, 730 F.3d
1234, 1234 (10th Cir. 2013). Recognizing the importance of federal jurisdiction issues, the Supreme
Court granted certiorari and vacated the judgment of
the Tenth Circuit. Dart, 574 U.S. at 96. In so doing,
the Supreme Court rejected the appellee’s argument
that there was nothing to reverse because there was
no judgment by the Tenth Circuit. Id. at 90-92. The
Court held that the “case was ‘in’ the Tenth Circuit
because of Dart’s application for leave to appeal, and
the Court has jurisdiction to review what the Court of
Appeals did with that application.” Id. at 90. According to the Supreme Court majority, the Tenth Circuit
declination of discretionary appeal under CAFA and
of en banc review equated to approval of the district
court decision. Id.; see also Standard Fire Ins. Co.,
568 U.S. at 591-92 (granting petition for writ of

10
certiorari after Eighth Circuit declined to hear CAFArelated appeal).
This Court should apply the same legal standard
here and grant certiorari to correct the manifest errors
made by the District Court and tacitly approved by
the Sixth Circuit, and to establish the appropriate
standards for addressing the removal and remand issues in this case.
REASONS FOR GRANTING THE WRIT
Pursuant to Supreme Court Rule 10, in evaluating
a petition for writ of certiorari, the Court should consider whether:
(a) a United States court of appeals has entered
a decision in conflict with the decision of another
United States court of appeals on the same important matter; . . . or has so far departed from
the accepted and usual course of judicial proceedings, or sanctioned such a departure by a lower
court, as to call for an exercise of this Court’s supervisory power;
...
(c) a state court or a United States court of appeals has decided an important question of federal law that has not been, but should be, settled
by this Court, or has decided an important federal question in a way that conflicts with relevant
decisions of this Court.
Here, the case presents important questions regarding CAFA removal and the timing of remand,
both of which impact the fundamental question of federal court jurisdiction. By sua sponte disregarding the

11
Congressionally established statutory deadline for remand, the District Court acted in a manner that
raises significant concerns about the separation of
powers under the U.S. Constitution, which not only
justifies an exercise of this Court’s supervisory power
but also presents an important question of federal law
that has not been addressed by this Court. Moreover,
the Sixth Circuit’s decision conflicts with decisions
from other Circuits, and within the Sixth Circuit itself, (1) that neither the district court nor litigants can
extend mandatory statutory deadlines; (2) that the
“other paper” under 28 U.S.C. § 1446(c)(3) notifying a
defendant of a basis to remove must be provided by
the plaintiff to the defendant; and (3) about what constitutes sufficient evidence to “unambiguously ascertain” that the CAFA amount in controversy exceeds
$5,000,000, giving defendants and courts notice that
a case is removable under CAFA.
A.

This case involves important issues of federal law that remain unresolved by this
Court.

This case presents important issues related to the
rules and standards governing removal and remand,
which are fundamental to issues of federal jurisdiction. Although the appellate court has discretion in
reviewing remand orders under CAFA, “[d]iscretion to
review a remand order is not rudderless.” Dart, 574
U.S. at 90. “When the CAFA-related question presented in an appeal from a remand order is ‘important, unsettled, and recurrent,’ . . . a court of appeals should inquire: ‘Absent an interlocutory appeal,
[will the question] in all probability escape meaningful appellate review.’” Id. at 91. Or, “if a district
court’s remand order remains undisturbed, will the

12
case ‘leave the ambit of the federal courts for good,
precluding any other opportunity for [the defendant]
to vindicate its claimed legal entitlement [under
CAFA] . . . to have a federal tribunal adjudicate the
merits?’” Id.
Here, as in Dart, the case presents important federal jurisdiction questions that are currently unresolved, namely whether the District Court can extend
the deadline to seek remand under Section 1447(c)
and what constitutes unambiguous notice for the defendant to ascertain the CAFA amount in controversy.
These are issues that lower courts must address every
day, and without guidance from this Court, the problems seen here will continue to reoccur regularly.
Upon remand to Michigan state court, this matter is
unlikely to return to federal court in a manner that
would allow Defendants to vindicate their entitlement
under CAFA to have a federal tribunal adjudicate this
case.
Moreover, courts and litigants need to know when
federal jurisdiction is ascertainable under CAFA. In
creating CAFA, Congress expressed that the primary
objective of CAFA is to “ensur[e] ‘Federal court consideration of interstate cases of national importance.’”
Dart, 574 U.S. at 89 (internal citation omitted). In
fact, the Sixth Circuit acknowledged that the question
of what constitutes sufficient evidence to “unambiguously ascertain” whether a case is removable under
CAFA is one of exceptional importance by noting that
the appeal will “allow us to further define what information is needed to permit a defendant to unambiguously ascertain CAFA jurisdiction.” (Permission to
Appeal Order, App. 5a) (citing Coll. of Dental Surgeons of P.R. v. Conn. Gen. Life Ins. Co., 585 F.3d 33,

13
38 (1st Cir. 2009)). Given that recognition by the
Sixth Circuit (and the three independent reversible
errors set forth in this petition), the Court should
grant certiorari to review this matter.
B.

The Sixth Circuit’s decision conflicts with
decisions holding that mandatory statutory deadlines cannot be extended by
courts or litigants.

In declining to review the District Court’s remand
order, the Sixth Circuit tacitly affirmed the District
Court’s sua sponte stay of the deadline to seek remand. But the Sixth Circuit’s own decision in In re
Tennial and other precedent in the Sixth and other
circuits make clear that the District Court had no authority to extend the Section 1447(c) deadline.
Section 1447(c) provides in relevant part:
A motion to remand the case on the basis of any
defect other than lack of subject matter jurisdiction must be made within 30 days after
the filing of the notice of removal under section
1446(a). . . .
28 U.S.C. § 1447(c) (emphasis added).
Plaintiffs failed to move to remand under Section
1447(c) within the prescribed 30-day period. The District Court nevertheless granted Plaintiffs’ Motion to
Remand, holding on reconsideration that “a stay order
and a subsequent order” entered by the District Court
“prevented” Plaintiffs from timely filing their motion
for remand. (Reconsideration Order, App. 11a). But
the District Court had no authority to unilaterally extend Plaintiffs’ waived objection. The Court should
grant this petition to correct this clear error.

14
This is not a narrow issue that is limited to the
facts of this case, and this is an error that is capable
of being repeated often. If a district court can unilaterally extend mandatory statutory deadlines, it can
deprive Congress of its exclusive authority to mandate
deadlines via statute, thereby undermining the separation of powers. Only Congress can delegate the authority to extend the statutory deadlines through the
Rules Enabling Act of 1934, 28 U.S.C. §§ 2017-2077,
and Congress clearly has not done so in the context of
Section 1447(c). In fact, Congress has done the exact
opposite and made the 30-day deadline to remand
mandatory by the use of the word “must” in the statute. If the 30-day deadline were among the “general
rules of practice and procedure” delegated to the
courts by the Rules Enabling Act, 28 U.S.C. § 2072,
then perhaps the District Court would have the authority to extend the deadline. But dispensing with a
statutory deadline set by Congress in this manner
raises significant concerns about the separation of
powers mandated by the U.S. Constitution.
In In re Tennial, the Sixth Circuit held that the 14day deadline to appeal a bankruptcy court’s order to
the district court under 28 U.S.C. § 158(c)(2) and
Bankruptcy Rule 8002(a)(1) was mandatory. 978 F.3d
at 1028. In so reasoning, the Court emphasized the
word “shall” in the statute. Id. Similarly, Section
1447(c) contains the word “must” and goes even further than the statute at issue in In re Tennial by specifying exactly what the time frame is — 30 days. 28
U.S.C. § 1447(c). Unlike the statute at issue in In re
Tennial, Section 1447(c) does not delegate specification for the time frame to the rules. Therefore, the

15
justification for finding the time frame mandatory
here is even stronger than it was in In re Tennial.
This approach is consistent with other precedent
in the Sixth Circuit holding that district courts are not
authorized to sua sponte revive forfeited procedural
bases for remand, such as timeliness. See Naji, 665 F.
App’x at 402 (holding that district court had no power
to remand sua sponte after plaintiffs forfeited their
ability to file a motion to remand based on a procedural defect); Page, 45 F.3d at 133 (“Section 1447(c)
does not authorize sua sponte remands for purely procedural defects” that have been waived by the plaintiff.). By unilaterally staying, then extending, Plaintiffs’ 30-day deadline to seek remand by more than
seven months, the District Court exceeded its authority, in violation of the statutory deadline and in conflict with the Sixth Circuit’s rulings in In re Tennial,
Naji, and Page.
Precedent in other Circuits also holds that a district court “lacks the authority to extend the time for
plaintiff to file a motion to remand asserting a procedural defect in the removal.” Ariel Land Owners, Inc.
v. Dring, 351 F.3d 611, 616 (3d Cir. 2003) (holding
that “a district court has no authority to order remand
on [a procedural defect] without a timely filed motion”); see also Holbein v. TAW Enters., 983 F.3d 1049,
1053 (8th Cir. 2020) (“If the motion to remand is based
on any removal ‘defect other than lack of subject matter jurisdiction,’ that motion ‘must be made within 30
days after the filing of the notice of removal.’ . . . Otherwise, objections to removal based on such defects
are waived.”); Pettitt, 606 F.3d at 343 (enforcing 30day limit); In re Bethesda, 123 F.3d at 1411 (same);
Pavone, 52 F.3d at 566 (same); FDIC v. Loyd, 955 F.2d

16
316, 322 (5th Cir. 1992) (“We interpret the first sentence of § 1447(c) as precluding all remands for procedural defects after the expiration of the thirty-day remand period.”).
Although it does not appear that this Court has directly addressed this issue, the Court has repeatedly
acknowledged that “Section 1447(c) requires that a
motion to remand for a defect in removal procedure be
filed within 30 days of removal.” Things Remembered,
Inc. v. Petrarca, 516 U.S. 124, 128 n.3 (1995); see also
Powerex Corp. v. Reliant Energy Services, Inc., 551
U.S. 224, 229 (2007); Wis. Dep’t. of Corr. v. Schacht,
524 U.S. 381, 392 (1998); Caterpillar Inc. v. Lewis, 519
U.S. 61, 69 n.6 (1996). The Court also has unequivocally held that a Congressionally established deadline
cannot be extended by a district court:
Within constitutional bounds, Congress decides
what cases the federal courts have jurisdiction
to consider. Because Congress decides whether
federal courts can hear cases at all, it can also
determine when, and under what conditions,
federal courts can hear them.
Bowles v. Russell, 551 U.S. 205, 212-13 (2007) (holding
that a district court lacked authority to extend an appeal deadline). The Court should grant certiorari here
to establish that this same standard applies to the 30day deadline in Section 1447(c).
Although not expressly stated in the Remand Order (App. 11a), the District Court treated the Section
1447(c) deadline as one that could be extended under
Rule 6(b). But that rule simply does not apply here.
As the D.C. Circuit succinctly explained:

17
Motions under Federal Rule of Civil Procedure
6(b) cannot extend statutory time limits.
“Every court to have considered this question
has held that Rule 6(b) may be used only to extend time limits imposed by the court itself or
by other Federal Rules, but not by statute.” The
reason is apparent. Rule 6(b) gives district
courts wide discretion to modify the time limits
set forth in the rules. Statutory time limits are
different. Whether a statute of limitations may
be tolled requires the court to engage in statutory interpretation. This is not a matter of the
court’s discretion. The intent of the legislature
is controlling. As in Argentine Republic, “the
district court could not, as a matter of law, have
granted the motion because Rule 6(b) may not
be used to extend periods of time dictated by
statute.”
Sherrod, 720 F.3d at 938 (citations and footnotes omitted); see also Argentine Republic v. Nat’l Grid PLC,
637 F.3d 365, 368 (D.C. Cir. 2011) (holding that Rule
6(b) cannot be used to extend statutory deadlines and
citing, among other decisions, United States v. Easement & Right-of-Way 100 Feet Wide and 747 Feet Long
Over Certain Land in Cumberland Cnty., Tenn., 386
F.2d 769, 771 (6th Cir. 1967)). To avoid these sorts of
errors in the future, the Court should grant certiorari
to clarify that Rule 6(b) cannot be applied to the 30day deadline in Section 1447(c).
Moreover, the period during which there was no
stay in the District Court exceeded 30 days. Excluding the full time during which the District Court action was stayed, the 30-day period to assert procedural objections expired while the case was unstayed

18
after the settlement conference. Twelve days passed
between removal of this case on February 21, 2019,
and the first stay of this case on March 5, 2019. (D.
Ct. ECF 19, PageID# 360). The case was then stayed
through the parties’ settlement conference on October
1, 2019, after which the stay was lifted, and Plaintiffs
waited another 22 days before filing their first (defective) motion to remand. (D. Ct. ECF 43, PageID# 522).
The combination of 12 days before the stay and 22
days after (totaling 34 days) exceeded the 30 days allowed under Section 1446(b). Thus, even if the District Court had the power to extend the statutorily
mandated 30-day deadline under Section 1447(c)
(which it didn’t), more than 30 days ran without a
stay, and as such, Plaintiffs waived remand regardless.
The Court therefore should grant certiorari to reiterate that mandatory statutory deadlines cannot be
extended by courts or litigants.
C.

The Sixth Circuit’s decision conflicts with
decisions holding that the “other paper”
from which a defendant can ascertain removability under CAFA must be provided
by the plaintiff to the defendant.

CAFA provides that a defendant must file a notice
of removal within 30 days of “receipt by the defendant
. . . of a copy of an amended pleading, motion, order or
other paper from which it may first be ascertained
that the case is one which is or has become removable.” 28 U.S.C. § 1446(b)(3). In Graiser, the Sixth Circuit adopted a “bright-line rule” that “the thirty-day
clocks of § 1446(b) begin to run only when the defendant receives a document from the plaintiff from which

19
the defendant can unambiguously ascertain CAFA jurisdiction.” 819 F.3d at 285 (emphasis in original).
The District Court held that Defendants’ notice of
removal was untimely because “the 30-day clock under § 1446(b)(3) began to run when PAR received [the
open letter]; by then PAR could have unambiguously
ascertained CAFA jurisdiction by reading the [open
letter] in conjunction with the [SAC].” (Remand Order, App. 20a-21a). But nothing in the record demonstrates Defendants received the open letter “from the
Plaintiff.” Graiser, 819 F.3d at 285. In fact, it is clear
that Defendants did not receive the open letter from
Plaintiffs. See, e.g., D. Ct. ECF 45-3, PageID# 745
(open letter addressed to “Fellow Michigan Recovery
Agent,” not any Defendant); D. Ct. ECF 52-1, PageID#
840 (Plaintiffs’ counsel stating that Defendants “got
ahold of this letter”). Instead, the District Court based
its ruling on the presumption that Defendants possessed the letter because they demanded that Plaintiffs retract it. (Remand Order, App. 21a). That finding is plainly erroneous because mere possession of a
document allegedly establishing the basis for removal
was deemed insufficient to trigger the removal deadline in Graiser. 819 F.3d at 283 (holding that internal
sales data in the defendant’s possession from the outset could not serve as the removal trigger because the
defendant had not received from the plaintiff any document unambiguously establishing CAFA jurisdiction).
Other Circuits agree that the “other paper” must
be provided by a plaintiff to a defendant. Indeed, the
Sixth Circuit in Graiser acknowledged that “‘[e]very
circuit to have addressed this issue has . . . adopted
some form of a bright-line rule that limits the court’s

20
inquiry to the clock-triggering pleading or other paper’
provided by the plaintiff to the defendant.” 819 F.3d at
284 (emphasis in original); see also Gibson v. Clean
Harbors Envtl. Servs., Inc., 840 F.3d 515, 519-20 (8th
Cir. 2016) (“We hold that, in the CAFA context, the
thirty-day removal period set forth in § 1446(b)(3)
does not begin to run until the defendant receives
from the plaintiff an amended pleading, motion, order, or other paper ‘from which the defendant can unambiguously ascertain’ that the CAFA jurisdictional
requirements have been satisfied.”) (citing Graiser v.
Visionworks of Am., Inc., 819 F.3d 277, 285 (6th Cir.
2016)); Romulus v. CVS Pharmacy, Inc., 770 F.3d 67,
76 (1st Cir. 2014) (stating that determining whether
1446(b) clock started requires focuses “exclusively on
. . . other papers provided by the plaintiffs”); Cutrone
v. Mortg. Elec. Registration Sys., 749 F.3d 137, 145-46
(2d Cir. 2014) (applying similar bright-line rule requiring that “the plaintiff serve[] the defendant” with
a document establishing CAFA jurisdiction); Walker
v. Trailer Transit, Inc., 727 F.3d 819, 824 (7th Cir.
2013) (adopting the “from the plaintiff” bright-line
rule and affirming denial of motion to remand).
“Congress clearly ‘intended [CAFA] to expand
substantially federal court jurisdiction over class actions’ and directed that CAFA’s ‘provisions should be
read broadly, with a strong preference that interstate
class actions should be heard in a federal court if
properly removed by any defendant.’” Graiser, 819
F.3d at 287 (quoting S. REP. NO. 109-14, at 43 (2005)).
Recognizing this intent, this Court held that “no antiremoval presumption attends cases invoking CAFA,
which Congress enacted to facilitate adjudication of

21
certain class actions in federal court.” Dart, 574 U.S.
at 89.
The Sixth Circuit’s ruling amounts to a presumption in favor of remand and conflicts with not only the
Sixth Circuit’s own standard, but the standards of
every other circuit to address this issue. It empowers
a plaintiff to post a statement online from which the
amount in controversy could arguably be deduced,
provide no direct notice to a defendant, and potentially foreclose removal of an interstate putative class
action. This is despite Congress’s intent to facilitate
these sorts of cases in federal court, as acknowledged
by this Court in Dart.
Accordingly, the Court should grant certiorari to
establish a clear, bright-line rule by ratifying the various Circuit Court decisions holding that the “other
paper” used to determine removability must be provided by the plaintiff to the defendant to start the
30-day clock.
D.

The Sixth Circuit’s decision conflicts with
decisions regarding what constitutes sufficient evidence to allow a litigant to “unambiguously ascertain” removability under CAFA.

Under Section 1446(b)(3), the 30-day clock begins
to run when the defendant receives a document “from
which it may first be ascertained that the case is one
which is or has become removable.” But the Supreme
Court has not established a standard for determining
when a removability can be “ascertained.” In the context of CAFA removal, the Sixth Circuit and its sister
circuits have held that a document cannot start the
removal clock in Section 1446(b)(3) unless a defendant

22
can “unambiguously ascertain CAFA jurisdiction”
from it. Graiser, 819 F.3d at 285; see also Gibson, 840
F.3d at 521-22 (holding that a settlement letter with
no factual support is insufficient to “unambiguously”
apprise the defendants of the true amount in controversy); Romulus, 770 F.3d at 74-76 (“Section
1446(b)(3) does not apply until removability can first
be ascertained from the plaintiffs’ own papers.”); Cutrone, 749 F.3d at 145 (holding that defendant is “not
required to perform an independent investigation into
a plaintiff’s indeterminate allegations to determine
removability”); Kuxhausen v. BMW Fin. Servs. NA
LLC, 707 F.3d 1136, 1140-42 (9th Cir. 2013) (noting
that courts do not impose on defendants a duty to ascertain removability under CAFA until they’ve “received a paper that gives them enough information to
remove”) (internal citation omitted). This test is not
satisfied unless it is “apparent from the allegations of
an initial pleading or subsequent document” that jurisdiction lies. Graiser, 819 F.3d at 285. In this case,
the open letter does not come close to satisfying that
standard, but the Sixth Circuit nonetheless tacitly endorsed the District Court’s remand order. Thus, the
Court should take this opportunity to establish a clear
rule governing ascertainability.
In Graiser, the plaintiff argued that the defendant
should have known that the case was removable because the defendant possessed the sales records that
would have revealed that the amount in controversy
exceeded $5,000,000 under the plaintiff’s theory of
damages. Id. But the Sixth Circuit rejected that argument by holding that although the defendant could
have investigated its own sales records and made “extrapolations or engaged in guesswork” regarding

23
removability, it had no duty to do so. Id. (quoting Kuxhausen v. BMW Fin. Servs. NA LLC, 707 F.3d 1136,
1140 (9th Cir. 2013)). In so holding, the Sixth Circuit
sought to address a fundamental policy goal of avoiding the “guesswork and [] ambiguity” of determining
on what date a defendant discovered documents in its
possession. Id.
This standard is appropriate because it is reasonable for the federal courts to discourage removals
based on ambiguous guesswork. But the District
Court’s decision in this case completely disregards
that standard and it would, if enforced universally,
force litigants to remove if they had even the slightest
(and often baseless) suspicion that a case might be removable, lest they risk an untimely removal. In the
open letter, Plaintiffs stated, in relevant part: “Despite the approximate 1.8 million misdemeanor violations, (the estimated number of vehicles repossessed
via these unlicensed Forwarders), it is now apparent
that [the Attorney General’s] delay has been intentional to allow time for the construction of a special
fast track to legal acceptability for these Forwarders.”
(D. Ct. ECF 45-3, PageID# 745). From that single sentence, the District Court’s decision suggests that Defendants were able to “unambiguously ascertain” each
of the following factual conclusions: (1) that reference
to “these forwarders” was an exclusive reference to the
Forwarder Defendants and the Forwarder Defendants were exclusively responsible for each of the alleged 1.8 million violations; (2) that the 1.8 million alleged violations all occurred during the class period of
April 5, 2004 to April 5, 2010, even though the open
letter was posted in 2014; (3) that the unexplained estimate of 1.8 million violations should be taken as true

24
and used as a basis to assert federal jurisdiction; and
(4) that each putative class member’s actual damages
is at least one dollar per repossession. Each one of
these holdings constitutes the kind of guesswork impugned by Graiser, and yet the Sixth Circuit’s ruling
accepted all four by allowing the District Court’s ruling to stand. Moreover, the open letter was retracted.
(Retraction, D. Ct. ECF 52-2, PageID# 880-81). How
a retracted letter could serve as notice of the CAFA
amount in controversy is lost on Defendants.
Thus, the Court should grant certiorari to address
the question of when jurisdiction is ascertainable under CAFA and establish a clear standard for avoiding
speculative removals.

25
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Blaine C. Kimrey
Counsel of Record
Vedder Price P.C.
222 North LaSalle Street
Chicago, Illinois 60601
(312) 609-7500
bkimrey@vedderprice.com

Leslie C. Morant
Morant Law PLLC
146 Monroe Center, NW,
Ste. 418
Grand Rapids, MI 49503
(616) 647-5426
les@morantlawpllc.com

Counsel for PAR, Inc.

Counsel for Remarketing Solutions, LLC, and
Renovo Services, LLC

June 4, 2021

APPENDIX

1a
A the united
Appendix A —Appendix
order of
states court of appeals for the sixth
ciRcuit, filed december 2, 2020
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 20-2008
GEORGE BADEEN, an individual and on
behalf of a proposed class; MIDWEST
RECOVERY AND ADJUSTMENT, INC., a
Michigan for profit corp., individually
and on behalf of a proposed class,
Plaintiffs-Appellees,
v.
RENOVO SERVICES, LLC, a Delaware
limited liability company; REMARKETING
SOLUTIONS, LLC, a Delaware limited
liability company, for itself and as
successors in interest; PAR, INC., an
Indiana corporation, dba PAR
North America,
Defendants-Appellants.
On Appeal from the United States District Court
for the Eastern District of Michigan

2a
Appendix A
ORDER
Before: SUTTON, COOK, and WHITE, Circuit
Judges.
On further review, the court decides that permission
to appeal under 28 U.S.C. § 1453(c)(1) was improvidently
granted.
ENTERED BY ORDER OF THE
COURT
/s/				
Deborah S. Hunt, Clerk

3a
B the united
Appendix b —Appendix
order of
states court of appeals for the
sixth circuit, filed october 15, 2020
United States Court of Appeals
for the Sixth Circuit
No. 20-0103
In re: PAR, INC., doing business as
PAR NORTH AMERICA, an Indiana
corporation, et al.,
Petitioners.
October 15, 2020, Filed
ORDER
Before: SUTTON, COOK, and WHITE, Circuit
Judges.
Defendants PAR, Inc., Renovo Services, LLC, and
Remarketing Solutions, LLC removed a putative class
action filed by Plaintiffs George Badeen and Midwest
Recovery and Adjustment, Inc. to the district court under
the Class Action Fairness Act (“CAFA”). Defendants
petition for permission to appeal the district court’s
order remanding the action on Plaintiffs’ motion, filed
more than eight months after the action was removed,
based on its conclusion that Defendants untimely removed
the action and its conclusion, upon reconsideration, that
Plaintiffs timely moved for remand. Plaintiffs oppose the
petition. Defendants have since notified the court that its

4a
Appendix B
motion for reconsideration was fully briefed and, later,
denied. Plaintiffs move to strike these notifications as
unauthorized attempts to reply in support of their petition
or, alternatively, for leave to file a sur-reply. Defendants
did not respond to the motion to strike.
First, we address Plaintiffs’ motion to strike. Federal
Rule of Appellate Procedure 5, governing petitions for
permission to appeal, does not provide for a reply to
petitions for permission to appeal. Fed. R. App. P. 5(b)(1)(2). A party, however, may move for relief not otherwise
afforded by the rules. Fed. R. App. P. 27(a)(1). While replies
are generally permitted to motions, the “reply must not
present matters that do not relate to the response.” Fed.
R. App. P. 27(a)(4). Defendants’ notifications, to the extent
they append documents filed in the district court, are
otherwise electronically available to us. Defendants never
sought or received leave of court to file a reply; thus, we
will not consider any substantive arguments in support of
their petition presented in their notifications.
Next, we consider the merits of the petition. Granting
a CAFA petition is within our discretion. See 28 U.S.C.
§ 1453(c)(1). Although § 1453 does not provide criteria
for accepting or denying review, our discretion “is not
rudderless.” Dart Cherokee Basin Operating Co. v.
Owens, 574 U.S. 81, 90, 135 S. Ct. 547, 190 L. Ed. 2d 495
(2014). A key factor is “the presence of an important
CAFA-related question.” Coll. of Dental Surgeons of P.R.
v. Conn. Gen. Life Ins. Co., 585 F.3d 33, 38 (1st Cir. 2009).
An unsettled question of CAFA law or an incorrectly
decided CAFA issue also favors granting the petition. Id.
Case-specific factors include whether the CAFA-related
question is consequential to the resolution of the case,

5a
Appendix B
whether the question is likely to evade review absent
an appeal, whether the question is likely to recur, and
whether the record is sufficiently developed for review.
Id. Finally, we balance the relevant harms to the parties
should an immediate appeal be granted. Id. at 39.
We have previously considered when the thirty-day
period for removing a class action under the CAFA
commences if it cannot be unambiguously ascertained from
the complaint that the action satisfies the prerequisites
for CAFA jurisdiction. Graiser v. Visionworks of Am.,
Inc., 819 F.3d 277, 285 (6th Cir. 2016). We have never
considered, however, in a published decision, whether the
thirty-day period in 28 U.S.C. § 1447(c) is a procedural
or jurisdictional requirement or, if the former, whether
equitable exceptions apply to that rule. The appeal, if
granted, will thus involve a CAFA-related legal issue of
statutory interpretation that can be decided on the record,
and allow us to further define what information is needed
to permit a defendant to unambiguously ascertain CAFA
jurisdiction. See Coll. of Dental Surgeons, 585 F.3d at 38.
The question is likely to recur. See id. Finally, without an
appeal, the issue will evade review because the case has
been remanded to state court. See id.
The petition for permission to appeal and the
motion to strike are GRANTED. A decision on a CAFA
appeal should be rendered within sixty days, unless an
extension of time is agreed to by all parties or an up-toten-day extension is granted for good cause. 28 U.S.C. §
1453(c)(2). This period begins to run when the petition is
granted. In re Mortg. Elec. Registration Sys., Inc., 680
F.3d 849, 852-53 (6th Cir. 2012). In view of these strict
time limitations for resolution of the appeal, briefing and

6a
Appendix B
submission will be accelerated. The clerk is DIRECTED
to enter an abbreviated briefing schedule and to expedite
the submission to the court.
Judge White would deny the petition for permission
to appeal.
ENTERED BY ORDER OF THE
COURT
/s/				
Deborah S. Hunt, Clerk

7a
C the united
Appendix C —Appendix
order of
states district court for the eastern
district of michigan, southern division,
filed may 21, 2020
United States District Court
for the Eastern District of Michigan
Southern Division
Case No. 19-10532
GEORGE BADEEN, et al.,
Plaintiffs,
v.
PAR, INC., d/b/a PAR North America, et al.,
Defendants.
May 21, 2020, Decided
May 21, 2020, Filed
Honorable Victoria A. Roberts
ORDER DENYING DEFENDANTS’ MOTION FOR
RECONSIDERATION BUT GRANTING MOTION
FOR STAY PENDING APPEAL [ECF No. 56]
I. 	INTRODUCTION
On March 31, 2020, the Court entered an order
remanding this case to state court.

8a
Appendix C
Defendants filed a motion for reconsideration or stay
of the Court’s remand order. The motion is fully briefed.
Defendants’ motion is GRANTED IN PART and
DENIED IN PART. The Court DENIES the motion
for reconsideration but GRANTS their motion for stay
pending appeal.
II. 	DISCUSSION
A.

Jurisdiction

Normally, a remand order based on the absence
of subject matter jurisdiction is not reviewable. See 28
U.S.C. § 1447(d). However, Congress expressly authorized
federal appellate courts to accept an appeal from a remand
order under the Class Action Fairness Act (“CAFA”)
“notwithstanding section 1447(d).” 28 U.S.C. § 1453(c).
Courts interpret “the CAFA exception to provide
continuing jurisdiction to reopen a previously remanded
case.” Perez-Reyes v. Nat’l Distrib. Ctrs., LLC, 2018 U.S.
Dist. LEXIS 221808, 2018 WL 7077183, at *2 (C.D. Cal.
Feb. 8, 2018) (exercising jurisdiction to decide a motion to
reconsider a remand order); Wingo v. State Farm Fire &
Cas. Co., 2013 U.S. Dist. LEXIS 104135, 2013 WL 3872199,
at *2 (W.D. Mo. July 25, 2013) (exercising jurisdiction over
a motion to reconsider a remand order); see also Zielinski
v. First Nat’l Ins. Co. of Am., 2020 U.S. Dist. LEXIS
87506, 2020 WL 2507993, at *1 (W.D. Wash. May 15, 2020)
(exercising jurisdiction over a motion to stay); Manier v.
Medtech Prods., 29 F. Supp. 3d 1284, 2014 WL 2919204,
at *1 (S.D. Cal. 2014) (same).

9a
Appendix C
The Court concludes it has jurisdiction to consider
Defendants’ motion for reconsideration or stay.
B. 	Motion for Reconsideration
“A motion for reconsideration is governed by the local
rules in the Eastern District of Michigan, which provide
that the movant must show both that there is a palpable
defect in the opinion and that correcting the defect will
result in a different disposition of the case.” In pertinent
part, Local Rule 7.1(h)(3) provides that:
[T]he court will not grant motions for rehearing
or reconsideration that merely present the same
issues ruled upon by the court, either expressly
or by reasonable implication. The movant must
not only demonstrate a palpable defect by which
the court and the parties and other persons
entitled to be heard on the motion have been
misled but also show that correcting the defect
will result in a different disposition of the case.
E.D. Mich. LR 7.1(h)(3). “A ‘palpable defect’ is a defect
which is obvious, clear, unmistakable, manifest, or plain.”
Ososki v. St. Paul Surplus Lines Ins. Co., 162 F. Supp. 2d
714, 718 (E.D. Mich. 2001). “A motion for reconsideration
should not be used liberally to get a second bite at the
apple, but should be used sparingly to correct actual
defects in the court’s opinion.” Oswald v. BAE Indus.,
Inc., No. 10-12660, 2010 U.S. Dist. LEXIS 137584, 2010
WL 5464271, at *1 (E.D. Mich. Dec. 30, 2010).

10a
Appendix C
“[A] motion for reconsideration is not an appropriate
vehicle for raising new facts or arguments.” United States
v. A.F.F., 144 F. Supp. 2d 809, 812 (E.D. Mich. 2001).
Indeed, motions for reconsideration do not permit “the
losing party to attempt to supplement the record with
previously available evidence” or “raise new legal theories
that should have been raised earlier.” Allen v. Henry
Ford Health Sys., No. 08-14106, 2010 U.S. Dist. LEXIS
14612, 2010 WL 653253, at *1 (E.D. Mich. Feb. 18, 2010).
See also Bank of Ann Arbor v. Everest Nat. Ins. Co., 563
Fed. Appx. 473, 476 (6th Cir. 2014) (“It is well-settled
that ‘parties cannot use a motion for reconsideration to
raise new legal arguments that could have been raised
before a judgment was issued.’ Furthermore, a party
may not introduce evidence for the first time in a motion
for reconsideration where that evidence could have been
presented earlier.” (citation omitted)); Sault Ste. Marie
Tribe of Chippewa Indians v. Engler, 146 F.3d 367, 374
(6th Cir.1998) (motions for reconsideration “are aimed at re
consideration, not initial consideration” (citation omitted)).
Defendants make several arguments in support
of their motion for reconsideration. However, none of
Defendants’ arguments demonstrates a palpable defect
by which the Court and the parties have been misled.
Nor do they demonstrate any correction would result in
a different disposition of the case.
Although it is unnecessary to address all arguments
Defendants raise in their motion for reconsideration, the
Court does address two arguments not addressed in the
Court’s order remanding the case.

11a
Appendix C
The first argument is that Plaintiffs’ open letter is
insufficient evidence of removability under the applicable
standards as of July 2014. Defendants did not raise this
argument in their briefing before the Court remanded
the case; thus, it is improper. See Bank of Ann Arbor, 563
Fed. Appx. at 476.
Defendants’ other argument that the Court addresses
is that the Court failed to address their argument that
Plaintiffs’ motion for remand was untimely. Defendants
are correct that the Court did not address this argument;
the Court believes it to be meritless. Due to a stay order
and a subsequent order entered by the Court, Plaintiffs
were prevented from filing a remand order earlier. Once
the Court lifted the stay order and settlement attempts
failed, Plaintiffs filed their motion for remand in a timely
manner and in compliance with Court orders.
T he Cou r t DENIES Defendants’ motion for
reconsideration.
C. 	Motion for Stay Pending Appeal
In deciding a motion to stay pending appeal, the Court
considers four factors:
(1) the likelihood that the party seeking the
stay will prevail on the merits of the appeal;
(2) the likelihood that the moving party will
be irreparably harmed absent a stay; (3) the
prospect that others will be harmed if the court
grants the stay; and (4) the public interest in
granting the stay.

12a
Appendix C
SEIU Local 1 v. Husted, 698 F.3d 341, 343 (6th
Cir. 2012) (per curiam) (citation omitted). The factors
are “interrelated considerations that must be balanced
together.” Id.
Although the Court finds that Defendants do not have
a strong likelihood to prevail on the merits of the appeal,
it finds that balancing the factors weighs in favor of a stay.
Section 1453(c) encourages federal appellate courts
to adjudicate reviews of CAFA remand orders in an
expedited manner — typically within 60 days of the date
the appeal was filed. See 28 U.S.C. § 1453(c)(2) (“If the
court of appeals accepts an appeal under paragraph (1), the
court shall complete all action on such appeal, including
rendering judgment, not later than 60 days after the date
on which such appeal was filed, unless an extension is
granted under paragraph (3).”).
This case has been pending for over ten years. In the
scheme of things, staying the litigation for two months for
the outcome of this appeal will cause minimal — if any
— harm to Plaintiffs. On the other hand, requiring the
parties to continue to litigate in state court could cause
irreparable harm to all the parties if the Court of Appeals
finds this Court has jurisdiction. The parties would incur
unnecessary expenses and have no way to recover them.
Moreover, a stay advances the public interest by avoiding
the risk that judicial resources of the state courts be
wasted.

13a
Appendix C
Because balancing the factors weighs in favor of a
stay, the Court GRANTS Defendants’ motion for stay
pending appeal.
III. CONCLUSION
T he Cou r t DENIES Defenda nt s’ mot ion for
reconsideration and GRANTS Defendants’ motion for
stay pending appeal.
IT IS ORDERED.
/s/ Victoria A. Roberts
Victoria A. Roberts
United States District Judge
Dated: May 21, 2020

14a
APPENDIX D —Appendix
ORDER D
OF THE UNITED
STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF MICHIGAN, SOUTHERN DIVISION,
FILED MARCH 31, 2020
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 19-10532
GEORGE BADEEN, et al.,
Plaintiffs,
v.
PAR, INC., D/B/A PAR NORTH AMERICA, et al.,
Defendants.
March 31, 2020, Decided
March 31, 2020, Filed
Honorable Victoria A. Roberts,
United States District Judge
ORDER GRANTING PLAINTIFFS’ MOTION TO
REMAND [ECF NO. 45] AND REMANDING THE
CASE TO STATE COURT

15a
Appendix D
I.

INTRODUCTION

Plaintiffs filed this proposed class action in state court
in April 2010. On February 21, 2019, three Defendants
— PAR, Inc. (“PAR”), Remarketing Solutions, LLC, and
Renovo Services, LLC — removed the case.
This removal was untimely. Plaintiffs’ motion to
remand [ECF No. 45] is GRANTED.
II. BACKGROUND
This case involves the motor vehicle repossession
business. The parties are various entities that intersect
when vehicles are repossessed.
There are two groups of Defendants — the “Lender
Defendants” and the “Forwarder Defendants.”
The “Lender Defendants” are lending institutions
who make secured automobile loans to individuals or
businesses, or purchase the secured notes of other lenders;
motor vehicles are the collateral for these secured loans.
The “Forwarder Defendants” are repossession
forwarding servicers. They are large scale companies
doing business on a national level.
Plaintiff George Badeen owns Plaintiff Midwest
Recovery and Adjustments, Inc. (“Midwest”; collectively,
“Plaintiffs”). Midwest is a licensed collection agency in
Michigan with repossession powers.

16a
Appendix D
Plaintiffs allege that the Lender Defendants
historically hired Michigan debt collectors like Midwest to
seize vehicle collateral within the State of Michigan, in the
event of default, on a case by case basis. However, Plaintiffs
allege the Forwarder Defendants routinely advertised
and approached the Lender Defendants to solicit the
accounts Plaintiffs historically managed. Plaintiffs say
the Forwarder Defendants are not licensed to collect on
such debt. Nonetheless, the Lender Defendants hired the
Forwarder Defendants. The Forwarder Defendants — in
turn — hired local, licensed repossession agents such as
Midwest to carry out the actual repossessions. And paid
them less for their repossession services than the Lender
Defendants paid them when they were hired directly.
In their second amended complaint, Plaintiffs allege:
(1) the Forwarder Defendants operated as unlicensed
collection and repossession agencies in violation of the
Michigan Occupational Code and Michigan Regulation of
Collection Practices Act; and (2) the Lender Defendants
conspired with the Forwarder Defendants to violate the
law by employing the Forwarder Defendants directly.
Plaintiffs seek to represent a class consisting of
“every automobile repossession agency or owner who
held a license as a debt collector in the State of Michigan
during the last 6 years [— i.e., April 2004 to April 2010].”
Plaintiffs say the class will represent approximately 150
agencies.
In Count VII of the second amended complaint,
Plaintiffs allege that the Forwarder Defendants willfully

17a
Appendix D
violated the Michigan Occupation Code. Plaintiffs seek
treble damages, costs, and attorney fees pursuant to
Mich. Comp. Laws § 339.916. Under that statute, “[i]f
the court finds that the method, act, or practice was a
wil[l]ful violation, it may award a civil penalty of not less
than 3 times the actual damages, or $150.00, whichever
is greater and shall award reasonable attorney’s fees and
court costs incurred in connection with the action.” Mich.
Comp. Laws § 339.916(2).
III.

DISCUSSION

Defendants removed this case pursuant to the Class
Action Fairness Act (“CAFA”), 28 U.S.C. § 1332(d).
Under CAFA, this Court has original jurisdiction to hear
a class action if: (1) the class has at least 100 members,
see § 1332(d)(5); (2) “any member of a class of plaintiffs
is a citizen of a State different from any defendant,” see
§ 1332(d)(2)(A); and (3) aggregating the claims of individual
members of the proposed class, the matter in controversy
exceeds $5,000,000, exclusive of interest and costs, see
§ 1332(d)(6). See Graiser v. Visionworks of Am., Inc., 819
F.3d 277, 282 (6th Cir. 2016).
A lthough Plaintiffs filed the second amended
complaint in September 2010, Defendants did not remove
until February 21, 2019.
Plaintiffs move to remand to state court. They say
Defendants’ removal was untimely.

18a
Appendix D
“Defendants removing under CAFA must comply with
the time limits of the general removal statute, 28 U.S.C.
§ 1446, except that the one-year deadline for removing
cases under diversity jurisdiction does not apply to cases
removed under CAFA.” Graiser, 819 F.3d at 282 (citing
28 U.S.C. § 1453).
Typically, a defendant has thirty days to file a notice
of removal after receiving a copy of the complaint. 28
U.S.C. § 1446(b)(1). However, “if the case stated by the
initial pleading is not removable,” § 1446(b)(3) allows a
defendant to file a notice of removal within 30 days after
receiving a copy of “an amended pleading, motion, order
or other paper from which it may first be ascertained that
the case is one which is or has become removable.” Id.;
Graiser, 819 F.3d at 282.
“A defendant’s failure to comply with the thirty-day
limitation set forth in Section 1446(b) is an absolute bar
to removal regardless of whether the removal would have
been proper if timely filed.” Groesbeck Investments, Inc.
v. Smith, 224 F. Supp. 2d 1144, 1148 (E.D. Mich. 2002).
The burden is on Defendants to show that they complied
with procedural requirements for removal. Id.
Defendants say removal was timely under 28 U.S.C.
§ 1446(b)(3), because Plaintiffs disclosed their damages
theory for the first time in discovery responses signed
January 24, 2019. Defendants claim that they were unable
to ascertain that the amount in controversy exceeded
$5,000,000 before then. Plaintiffs’ discovery response
stated:

19a
Appendix D
Discovery as to total repossessions done by
Forwarders is still ongoing. As an individual,
George Badeen would be entitled to $175 per
motor vehicle, or $50.00 per motor vehicle
tripled under the statute, MCL 339.916, plus
attorney’s fees and costs. As to the unnamed
class members, damages would be the total
number of repossessions times $175 net
proceeds per repossession.
[ECF No. 1-4, PageID.256].
Graiser sets forth the Sixth Circuit’s standard for
determining when the 30-day period under § 1446(b)(3)
begins:
[I]n CAFA cases, the thirty-day clocks of
§ 1446(b) begin to run only when the
defendant receives a document from the
plaintiff from which the defendant can
unambiguously ascertain CAFA jurisdiction.
Under this bright-line rule, a defendant is not
required to search its own business records
or “perform an independent investigation
into a plaintiff’s indeterminate allegations to
determine removability.” We agree with the
Second Circuit, however, that a defendant
does have a duty to “apply a reasonable
amount of intelligence to its reading of a
plaintiff’s complaint” or other document.
For example, a defendant cannot prevent
the beginning of the thirty-day window by

20a
Appendix D
refusing to “multiply figures clearly stated
in a complaint.” But “if removability is not
apparent from the allegations of an initial
pleading or subsequent document” sent
from the plaintiff, the thirty-day clocks of
§ 1446(b) do not begin.
Graiser, 819 F.3d at 285 (internal citations and brackets
omitted; emphasis in original).
D e fe n d a nt s s ay t h a t t h ey w e r e u n a bl e t o
“unambiguously ascertain CAFA jurisdiction” until
they received Plaintiffs’ discovery response. However,
Plaintiffs say they provided Defendants with documents
over four years ago which would have allowed them to
unambiguously ascertain that the amount in controversy
exceeded $5,000,000. As support, Plaintiffs rely upon
the combination of: (1) their second amended complaint,
which includes the number of class members as well as
their claim for treble damages under Mich. Comp. Laws
§ 339.916; (2) an open letter sent by Plaintiffs to licensed
Michigan “recovery agencies” — including PAR — on
July 25, 2014; and (3) their class certification brief filed
twice in state court on unspecified dates, which stated that
“[t]he damages in this case will total in the millions.”
The class certification brief does not help Plaintiffs.
However, the Court finds that the 30-day clock under
§ 1446(b)(3) began to run when PAR received Plaintiffs’
July 25, 2014 open letter; by then, PAR could have
unambiguously ascertained CAFA jurisdiction by reading

21a
Appendix D
the July 25, 2014 open letter in conjunction with the second
amended complaint.
PAR received the July 25, 2014 open letter. PAR was
a licensed recovery agency at that time, [see ECF No.
53, PageID.883-84]. And — on July 30, 2014, through its
attorneys — PAR sent Plaintiffs a cease and desist letter
responding to the July 25 open letter; this cease and desist
letter referenced the open letter and attached a copy of
it for reference.
Plaintiffs’ July 25 open letter discusses an opinion
from the Michigan Supreme Court from an earlier appeal
in this case and states that “these . . . Forwarders” —
meaning the Forwarder Defendants — were responsible
for “approximate[ly] 1.8 million misdemeanor violations[]
([i.e.,] the estimated number of vehicles repossessed
via these unlicensed Forwarders).” [ECF No. 45-3,
PageID.744-45].
Defendants claim that Plaintiffs retracted the
open letter and say the Court should disregard it. This
is incorrect; Plaintiffs never retracted the letter or
their allegation that the Forwarder Defendants were
responsible for 1.8 million repossessions/violations.
D efend a nt s a rg ue t h at t he let t er do e s not
unambiguously establish that the amount in controversy
exceeds $5,000,000 because it: (1) does not state how
many of the alleged repossessions are attributable to the
Forwarder Defendants; and (2) provides no time frame
for when the alleged repossessions occurred.

22a
Appendix D
The Court disagrees. The letter discusses Plaintiffs’
case against Defendants; then, it refers to “these
Forwarders.” It is clear that Plaintiffs refer to the
Forwarder Defendants.
Defendants’ time frame argument is a merits issue
which they can raise in defense of Plaintiffs’ allegations.
The amount in controversy is determined based on
Plaintiffs’ allegations; here, Plaintiffs allege that the
number of violations (i.e., repossessions) the Forwarder
Defendants committed under Mich. Comp. Laws § 339.916
is 1.8 million. Thus, the relevant number of repossessions/
violations for determining the amount in controversy is
1.8 million.
Considering Plaintiffs’ allegation of 1.8 million
repossessions together with their request for treble
damages under Mich. Comp. Laws § 339.916, it is
unambig uously ascertainable that the amount in
controversy exceeds $5,000,000. In fact, multiplying
the trebled damages available under § 339.916 by the
alleged 1.8 million repossessions/violations, the amount
in controversy is at least $270,000,000 (i.e., 1.8 million *
$150). See Mich. Comp. Laws § 339.916(2) (if it is a willful
violation, the Court “may award a civil penalty of not less
than 3 times the actual damages, or $150.00, whichever
is greater . . .” (emphasis added)).
This statute — along with Plaintiffs’ allegation that
the Forwarder Defendants’ violations were willful and
Plaintiffs’ request for treble damages — are clearly
expressed in the second amended complaint. Thus, once

23a
Appendix D
Plaintiffs’ sent PAR the July 25, 2014 open letter indicating
that they were alleging that Forwarder Defendants
were responsible for 1.8 million repossessions/violations
as part of this case, all that was required to ascertain
CAFA jurisdiction was to “apply a reasonable amount of
intelligence” and “multiply figures clearly stated” in the
second amended complaint and open letter. See Graiser,
819 F.3d at 285. Accordingly, the 30-day clock under
§ 1446(b)(3) began to run no later than July 30, 2014 — i.e.,
the date of PAR’s cease and desist letter. Removal was
untimely. See id.
Defendants argue that the statutory damages under
Mich. Comp. Laws § 339.916 — $150 per willful violation
— are irrelevant for purposes of determining the amount
in controversy; they say that, because this is a class action,
Plaintiffs and the putative class members can only recover
actual damages and are not entitled to statutory damages
pursuant to Michigan Court Rule 3.501(A)(5).
While this may be true in state court, “federal
procedural rules . . . govern cases in federal courts, not
their state counterparts.” Martin v. Trott Law, P.C., 265 F.
Supp. 3d 731, 750 (E.D. Mich. 2017) (rejecting defendant’s
argument to apply Mich. Ct. R. 3.501(A)(5) to preclude
plaintiffs from proceeding with a class action claim for
statutory damages under the Regulation of Collection
Practices Act). See also Am. Copper & Brass, Inc. v.
Lake City Indus. Prods., 757 F.3d 540, 546 (6th Cir. 2014)
(rejecting defendant’s argument to apply Mich. Ct. R.
3.501(A)(5) to dismiss class action claims and noting that
“the Supreme Court recently held in a case involving a

24a
Appendix D
conflict between Rule 23 and a New York procedural rule
prohibiting class actions in cases involving a statutory
penalty [that] a ‘Federal Rule governing procedure is
valid whether or not it alters the outcome of the case in a
way that induces forum shopping’” (quoting Shady Grove
Orthopedic Assocs., P.A. v. Allstate Ins. Co., 559 U.S. 393,
416, 130 S. Ct. 1431, 176 L. Ed. 2d 311 (2010))).
Because federal procedural rules would allow
Plaintiffs and the proposed class members to recover
statutory damages, and any removed case would be
governed by federal procedural rules, the statutory
damages recoverable under Mich. Comp. Laws § 339.916(2)
are relevant for purposes of determining the amount in
controversy. See id.
However, even disregarding statutory damages, CAFA
jurisdiction was still unambiguously ascertainable based
on the open letter and the second amended complaint.
Assuming only actual damages were recoverable in this
Court, the amount in controversy exceeds $5,000,000
even if Plaintiffs were only alleging $1 in actual damages
per repossession — which is an amount below what any
reasonable person could believe Plaintiffs were seeking
for actual damages per repossession.
Using $1 in actual damages per repossession, the
amount in controversy would be no less than $5,400,000 —
considering Plaintiffs’ allegation that Lender Defendants’
violations were willful and Mich. Comp. Laws § 339.916(2)
provides for an award of “not less than 3 times the
actual damages” for willful violations. Thus, trebling the

25a
Appendix D
hypothetical $1 in actual damages, Plaintiffs could recover
$3 for each of the 1.8 million repossessions/violations they
allege, such that the amount in controversy for Count
VII of the second amended complaint would be at least
$5,400,000 (i.e., 1.8 million * $3).
Defendants untimely removed under 28 U.S.C.
§ 1446(b)(3).
IV. CONCLUSION
The Court GRANTS Plaintiffs’ motion to remand
[ECF No. 45].
The Court REMANDS this case to the Third Judicial
Circuit Court in Wayne County, Michigan.
IT IS ORDERED.
/s/ Victoria A. Roberts
Victoria A. Roberts
United States District Judge
Dated: March 31, 2020

26a
Appendixof
E rehearing of
Appendix e — denial
the united states court of appeals for
the sixth circuit, filed january 5, 2021
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 20-2008
GEORGE BADEEN, AN INDIVIDUAL AND ON
BEHALF OF A PROPOSED CLASS; MIDWEST
RECOVERY AND ADJUSTMENT, INC., A
MICHIGAN FOR PROFIT CORP., INDIVIDUALLY
AND ON BEHALF OF A PROPOSED CLASS,
Plaintiffs-Appellees,
v.
RENOVO SERVICES, LLC, A DELAWARE
LIMITED LIABILITY COMPANY; REMARKETING
SOLUTIONS, LLC, A DELAWARE LIMITED
LIABILITY COMPANY, FOR ITSELF AND AS
SUCCESSORS IN INTEREST; PAR, INC., AN
INDIANA CORPORATION, DBA PAR
NORTH AMERICA,
Defendants-Appellants.
ORDER
BEFORE: SUTTON, COOK, and WHITE, Circuit
Judges.

27a
Appendix E
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for rehearing
and concludes that the issues raised in the petition were
fully considered upon the original submission and decision
of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion
for rehearing en banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE
COURT
/s/				
Deborah S. Hunt, Clerk

28a
F STATUTORY
APPENDIX F —Appendix
RELEVANT
PROVISIONS
28 U.S.C. § 1332. Diversity of citizenship;
amount in controversy; costs
(a) The district courts shall have original jurisdiction of
all civil actions where the matter in controversy exceeds
the sum or value of $75,000, exclusive of interest and costs,
and is between–
(1) Citizens of different States;
(2) citizens of a State and citizens or subjects of a
foreign state, except that the district courts shall not
have original jurisdiction under this subsection of
an action between citizens of a State and citizens or
subjects of a foreign state who are lawfully admitted
for permanent residence in the United States and are
domiciled in the same State;
(3) citizens of different States and in which citizens or
subjects of a foreign state are additional parties; and
(4) a foreign state, defined in section 1603(a) of this
title [28 USCS § 1603(a)], as plaintiff and citizens of a
State or of different States.
(b) Except when express provision therefor is otherwise
made in a statute of the United States, where the plaintiff
who files the case originally in the Federal courts is finally
adjudged to be entitled to recover less than the sum or
value of $75,000, computed without regard to any setoff or

29a
Appendix F
counterclaim to which the defendant may be adjudged to
be entitled, and exclusive of interest and costs, the district
court may deny costs to the plaintiff and, in addition, may
impose costs on the plaintiff.
(c) For the purposes of this section and section 1441 of
this title [28 USCS § 1441]–
(1) a corporation shall be deemed to be a citizen of
every State and foreign state by which it has been
incorporated and of the State or foreign state where
it has its principal place of business, except that in
any direct action against the insurer of a policy or
contract of liability insurance, whether incorporated
or unincorporated, to which action the insured is not
joined as a party-defendant, such insurer shall be
deemed a citizen of–
(A) every State and foreign state of which the
insured is a citizen;
(B) every State and foreign state by which the
insurer has been incorporated; and
(C) the State or foreign state where the insurer
has its principal place of business; and
(2) the legal representative of the estate of a decedent
shall be deemed to be a citizen only of the same State
as the decedent, and the legal representative of an
infant or incompetent shall be deemed to be a citizen
only of the same State as the infant or incompetent.

30a
Appendix F
(d)(1) In this subsection–
(A) the term “class” means all of the class members
in a class action;
(B) the term “class action” means any civil action
filed under rule 23 of the Federal Rules of Civil
Procedure or similar State statute or rule of
judicial procedure authorizing an action to be
brought by 1 or more representative persons as a
class action;
(C) the term “class certification order” means an
order issued by a court approving the treatment
of some or all aspects of a civil action as a class
action; and
(D) the term “class members” means the persons
(named or unnamed) who fall within the definition
of the proposed or certified class in a class action.
(2) The district courts shall have original jurisdiction
of any civil action in which the matter in controversy
exceeds the sum or value of $5,000,000, exclusive of
interest and costs, and is a class action in which–
(A) any member of a class of plaintiffs is a citizen
of a State different from any defendant;
(B) any member of a class of plaintiffs is a foreign
state or a citizen or subject of a foreign state and
any defendant is a citizen of a State; or

31a
Appendix F
(C) any member of a class of plaintiffs is a citizen
of a State and any defendant is a foreign state or a
citizen or subject of a foreign state.
(3) A district court may, in the interests of justice and
looking at the totality of the circumstances, decline to
exercise jurisdiction under paragraph (2) over a class
action in which greater than one-third but less than
two-thirds of the members of all proposed plaintiff
classes in the aggregate and the primary defendants
are citizens of the State in which the action was
originally filed based on consideration of–
(A) whether the claims asserted involve matters
of national or interstate interest;
(B) whether the claims asserted will be governed
by laws of the State in which the action was
originally filed or by the laws of other States;
(C) whether the class action has been pleaded in
a manner that seeks to avoid Federal jurisdiction;
(D) whether the action was brought in a forum
with a distinct nexus with the class members, the
alleged harm, or the defendants;
(E) whether the number of citizens of the State in
which the action was originally filed in all proposed
plaintiff classes in the aggregate is substantially
larger than the number of citizens from any other
State, and the citizenship of the other members of

32a
Appendix F
the proposed class is dispersed among a substantial
number of States; and
(F) whether, during the 3-year period preceding
the filing of that class action, 1 or more other class
actions asserting the same or similar claims on
behalf of the same or other persons have been filed.
(4) A district court shall decline to exercise jurisdiction
under paragraph (2)–
(A)(i) over a class action in which–
(I) greater than two-thirds of the members
of all proposed plaintiff classes in the
aggregate are citizens of the State in which
the action was originally filed;
(II) at least 1 defendant is a defendant–
(aa) from whom significant relief is
sought by members of the plaintiff class;
(bb) whose alleged conduct forms a
significant basis for the claims asserted
by the proposed plaintiff class; and
(cc) who is a citizen of the State in which
the action was originally filed; and
(III) principal injuries resulting from the
alleged conduct or any related conduct of

33a
Appendix F
each defendant were incurred in the State
in which the action was originally filed; and
(ii) during the 3-year period preceding the filing
of that class action, no other class action has
been filed asserting the same or similar factual
allegations against any of the defendants on
behalf of the same or other persons; or
(B) two-thirds or more of the members of all
proposed plaintiff classes in the aggregate, and
the primary defendants, are citizens of the State
in which the action was originally filed.
(5) Paragraphs (2) through (4) shall not apply to any
class action in which–
(A) the primary defendants are States, State
officials, or other governmental entities against
whom the district court may be foreclosed from
ordering relief; or
(B) the number of members of all proposed plaintiff
classes in the aggregate is less than 100.
(6) In any class action, the claims of the individual class
members shall be aggregated to determine whether
the matter in controversy exceeds the sum or value of
$5,000,000, exclusive of interest and costs.
(7) Citizenship of the members of the proposed
plaintiff classes shall be determined for purposes of

34a
Appendix F
paragraphs (2) through (6) as of the date of filing of
the complaint or amended complaint, or, if the case
stated by the initial pleading is not subject to Federal
jurisdiction, as of the date of service by plaintiffs of an
amended pleading, motion, or other paper, indicating
the existence of Federal jurisdiction.
(8) This subsection shall apply to any class action
before or after the entry of a class certification order
by the court with respect to that action.
(9) Paragraph (2) shall not apply to any class action
that solely involves a claim–
(A) concerning a covered security as defined under
[section] 16(f)(3) of the Securities Act of 1933 (15
U.S.C. 78p(f)(3) [15 USCS § 77p(f)(3)]) and section
28(f)(5)(E) of the Securities Exchange Act of 1934
(15 U.S.C. 78bb(f)(5)(E));
(B) that relates to the internal affairs or governance
of a corporation or other form of business enterprise
and that arises under or by virtue of the laws of
the State in which such corporation or business
enterprise is incorporated or organized; or
(C) that relates to the rights, duties (including
fiduciary duties), and obligations relating to or
created by or pursuant to any security (as defined
under section 2(a)(1) of the Securities Act of 1933
(15 U.S.C. 77b(a)(1)) and the regulations issued
thereunder).

35a
Appendix F
(10) For purposes of this subsection and section 1453
[28 USCS § 1453], an unincorporated association shall
be deemed to be a citizen of the State where it has its
principal place of business and the State under whose
laws it is organized.
(11)(A) For purposes of this subsection and section
1453 [28 USCS § 1453], a mass action shall be deemed
to be a class action removable under paragraphs (2)
through (10) if it otherwise meets the provisions of
those paragraphs.
(B)(i) As used in subparagraph (A), the term
“mass action” means any civil action (except a civil
action within the scope of section 1711(2) [28 USCS
§ 1711(2)]) in which monetary relief claims of 100 or
more persons are proposed to be tried jointly on the
ground that the plaintiffs’ claims involve common
questions of law or fact, except that jurisdiction
shall exist only over those plaintiffs whose claims
in a mass action satisfy the jurisdictional amount
requirements under subsection (a).
(ii) As used in subparagraph (A), the term
“mass action” shall not include any civil action
in which–
(I) all of the claims in the action arise from
an event or occurrence in the State in which
the action was filed, and that allegedly
resulted in injuries in that State or in States
contiguous to that State;

36a
Appendix F
(II) the claims are joined upon motion of a
defendant;
(III) all of the claims in the action are
asserted on behalf of the general public
(and not on behalf of individual claimants
or members of a purported class) pursuant
to a State statute specifically authorizing
such action; or
(IV) the claims have been consolidated or
coordinated solely for pretrial proceedings.
(C)(i) Any action(s) removed to Federal court
pursuant to this subsection shall not thereafter be
transferred to any other court pursuant to section
1407 [28 USCS § 1407], or the rules promulgated
thereunder, unless a majority of the plaintiffs in
the action request transfer pursuant to section
1407 [28 USCS § 1407].
(ii) This subparagraph will not apply–
(I) to cases certified pursuant to rule 23 of
the Federal Rules of Civil Procedure; or
(II) if plaintiffs propose that the action
proceed as a class action pursuant to rule
23 of the Federal Rules of Civil Procedure.
(D) The limitations periods on any claims asserted
in a mass action that is removed to Federal court

37a
Appendix F
pursuant to this subsection shall be deemed tolled
during the period that the action is pending in
Federal court.
(e) The word “States”, as used in this section, includes
the Territories, the District of Columbia, and the
Commonwealth of Puerto Rico.

38a
Appendix F
28 U.S.C. § 1446. Procedure for
removal of civil actions
(a) Generally. A defendant or defendants desiring to
remove any civil action from a State court shall file in
the district court of the United States for the district
and division within which such action is pending a notice
of removal signed pursuant to Rule 11 of the Federal
Rules of Civil Procedure and containing a short and plain
statement of the grounds for removal, together with a
copy of all process, pleadings, and orders served upon
such defendant or defendants in such action.
(b) Requirements; generally. (1) The notice of removal of
a civil action or proceeding shall be filed within 30 days
after the receipt by the defendant, through service or
otherwise, of a copy of the initial pleading setting forth
the claim for relief upon which such action or proceeding
is based, or within 30 days after the service of summons
upon the defendant if such initial pleading has then been
filed in court and is not required to be served on the
defendant, whichever period is shorter.
(2)(A) When a civil action is removed solely under
section 1441(a) [28 USCS § 1441(a)], all defendants who
have been properly joined and served must join in or
consent to the removal of the action.
(B) Each defendant shall have 30 days after
receipt by or service on that defendant of the initial
pleading or summons described in paragraph (1)
to file the notice of removal.

39a
Appendix F
(C) If defendants are served at different times, and
a later-served defendant files a notice of removal,
any earlier-served defendant may consent to the
removal even though that earlier-served defendant
did not previously initiate or consent to removal.
(3) Except as provided in subsection (c), if the case
stated by the initial pleading is not removable, a notice
of removal may be filed within 30 days after receipt by
the defendant, through service or otherwise, of a copy
of an amended pleading, motion, order or other paper
from which it may first be ascertained that the case
is one which is or has become removable.
(c) Requirements; removal based on diversity of
citizenship.
(1) A case may not be removed under subsection (b)(3)
on the basis of jurisdiction conferred by section 1332 [28
USCS § 1332] more than 1 year after commencement
of the action, unless the district court finds that the
plaintiff has acted in bad faith in order to prevent a
defendant from removing the action.
(2) If removal of a civil action is sought on the basis
of the jurisdiction conferred by section 1332(a) [28
USCS § 1332(a)], the sum demanded in good faith in
the initial pleading shall be deemed to be the amount
in controversy, except that–
(A) the notice of removal may assert the amount in
controversy if the initial pleading seeks–

40a
Appendix F
(i) nonmonetary relief; or
(ii) a money judgment, but the State practice
either does not permit demand for a specific
sum or permits recovery of damages in excess
of the amount demanded; and
(B) removal of the action is proper on the basis
of an amount in controversy asserted under
subparagraph (A) if the district court finds, by the
preponderance of the evidence, that the amount in
controversy exceeds the amount specified in section
1332(a) [28 USCS § 1332(a)].
(3)(A) If the case stated by the initial pleading is not
removable solely because the amount in controversy
does not exceed the amount specified in section 1332(a)
[28 USCS § 1332(a)], information relating to the amount
in controversy in the record of the State proceeding,
or in responses to discovery, shall be treated as an
“other paper” under subsection (b)(3).
(B) If the notice of removal is filed more than 1
year after commencement of the action and the
district court finds that the plaintiff deliberately
failed to disclose the actual amount in controversy
to prevent removal, that finding shall be deemed
bad faith under paragraph (1).
(d) Notice to adverse parties and State court. Promptly
after the filing of such notice of removal of a civil action the
defendant or defendants shall give written notice thereof

41a
Appendix F
to all adverse parties and shall file a copy of the notice with
the clerk of such State court, which shall effect removal
and the State court shall proceed no further unless and
until the case is remanded.
(e) Counterclaim in 337 proceeding. With respect to
any counterclaim removed to a district court pursuant to
section 337(c) of the Tariff Act of 1930 [19 USCS § 1337(c)],
the district court shall resolve such counterclaim in the
same manner as an original complaint under the Federal
Rules of Civil Procedure, except that the payment of
a filing fee shall not be required in such cases and the
counterclaim shall relate back to the date of the original
complaint in the proceeding before the International
Trade Commission under section 337 of that Act [19 USCS
§ 1337].
(f) [Redesignated]
(g) Where the civil action or criminal prosecution that is
removable under section 1442(a) [28 USCS § 1442(a)] is
a proceeding in which a judicial order for testimony or
documents is sought or issued or sought to be enforced,
the 30-day requirement of subsection (b) of this section
and paragraph (1) of section 1455(b) [28 USCS § 1455(b)]
is satisfied if the person or entity desiring to remove the
proceeding files the notice of removal not later than 30
days after receiving, through service, notice of any such
proceeding.

42a
Appendix F
28 U.S.C. § 1447. Procedure after
removal generally
(a) In any case removed from a State court, the district
court may issue all necessary orders and process to bring
before it all proper parties whether served by process
issued by the State court or otherwise.
(b) It may require the removing party to file with its clerk
copies of all records and proceedings in such State court
or may cause the same to be brought before it by writ of
certiorari issued to such State court.
(c) A motion to remand the case on the basis of any
defect other than lack of subject matter jurisdiction must
be made within 30 days after the filing of the notice of
removal under section 1446(a) [28 USCS § 1446(a)]. If at
any time before final judgment it appears that the district
court lacks subject matter jurisdiction, the case shall be
remanded. An order remanding the case may require
payment of just costs and any actual expenses, including
attorney fees, incurred as a result of the removal. A
certified copy of the order of remand shall be mailed by
the clerk to the clerk of the State court. The State court
may thereupon proceed with such case.
(d) An order remanding a case to the State court from
which it was removed is not reviewable on appeal or
otherwise, except that an order remanding a case to the
State court from which it was removed pursuant to section
1442 or 1443 of this title [28 USCS § 1442 or 1443] shall
be reviewable by appeal or otherwise.

43a
Appendix F
(e) If after removal the plaintiff seeks to join additional
defendants whose joinder would destroy subject matter
jurisdiction, the court may deny joinder, or permit joinder
and remand the action to the State court.

44a
Appendix F
28 U.S.C. § 1453. Removal of class actions
(a) Definitions. In this section, the terms “class”, “class
action”, “class certification order”, and “class member”
shall have the meanings given such terms under section
1332(d)(1) [28 USCS § 1332(d)(1)].
(b) In general. A class action may be removed to a district
court of the United States in accordance with section 1446
[28 USCS § 1446] (except that the 1-year limitation under
section 1446(c)(1) [28 USCS § 1446(c)(1)] shall not apply),
without regard to whether any defendant is a citizen of
the State in which the action is brought, except that such
action may be removed by any defendant without the
consent of all defendants.
(c) Review of remand orders.
(1) In general. Section 1447 [28 USCS § 1447] shall
apply to any removal of a case under this section,
except that notwithstanding section 1447(d) [28 USCS
§ 1447(d)], a court of appeals may accept an appeal
from an order of a district court granting or denying
a motion to remand a class action to the State court
from which it was removed if application is made to
the court of appeals not more than 10 days after entry
of the order.
(2) Time period for judgment. If the court of appeals
accepts an appeal under paragraph (1), the court shall
complete all action on such appeal, including rendering
judgment, not later than 60 days after the date on
which such appeal was filed, unless an extension is
granted under paragraph (3).

45a
Appendix F
(3) Extension of time period. The court of appeals
may grant an extension of the 60-day period described
in paragraph (2) if—
(A) all parties to the proceeding agree to such
extension, for any period of time; or
(B) such extension is for good cause shown and in
the interests of justice, for a period not to exceed
10 days.
(4) Denial of appeal. If a final judgment on the appeal
under paragraph (1) is not issued before the end of
the period described in paragraph (2), including any
extension under paragraph (3), the appeal shall be
denied.
(d) Exception. This section shall not apply to any class
action that solely involves—
(1) a claim concerning a covered security as defined
under section 16(f)(3) of the Securities Act of 1933 (15
U.S.C. 78p(f)(3) [77p(f)(3)]) and section 28(f)(5)(E) of
the Securities Exchange Act of 1934 (15 U.S.C. 78bb(f)
(5)(E));
(2) a claim that relates to the internal affairs or
governance of a corporation or other form of business
enterprise and arises under or by virtue of the laws
of the State in which such corporation or business
enterprise is incorporated or organized; or

46a
Appendix F
(3) a claim that relates to the rights, duties (including
fiduciary duties), and obligations relating to or created
by or pursuant to any security (as defined under section
2(a)(1) of the Securities Act of 1933 (15 U.S.C. 77b(a)
(1)) and the regulations issued thereunder).

